                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2008                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: QuickResponse Evaluation: Individuals Withdrawing Title II Benefit Applications
        (A-05-08-28110)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to assess the process, and related volume of transactions, whereby
        Title II retired beneficiaries age 62 and over withdrew their Social Security
        Administration benefit applications and requested new benefits based on a later
        retirement date.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
 Individuals Withdrawing
Title II Benefit Applications

        A-05-08-28110




        September 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                  Executive Summary
OBJECTIVE
Our objective was to assess the process, and related volume of transactions, whereby
Title II retired beneficiaries age 62 and over withdrew their Social Security
Administration (SSA) benefit applications and requested new benefits based on a later
retirement date.

BACKGROUND
An SSA beneficiary’s monthly benefit amount can vary based on the age at which the
beneficiary decides to start receiving benefits. If the beneficiary requests benefits
before full retirement age (FRA), he or she will get a reduced monthly benefit. Also, if a
beneficiary waits until age 70 to retire, the monthly benefit amount increases. SSA
policy also allows beneficiaries to withdraw an application after it has been filed once
beneficiaries consent in writing to the withdrawal and repay all the benefits received.

RESULTS OF REVIEW
Current SSA policy allows withdrawal of an application for any reason. The Agency did
not maintain detailed management information related to the number of Title II
retirement application withdrawals. We estimate that Title II retirement application
withdrawals in Calendar Year 2007 ranged from about 12,000 applications (the number
we were able to extract from SSA’s systems) to about 26,000 applications (the Agency’s
reported number). Our review of withdrawal applications indicated the majority of
beneficiaries withdrawing benefits are doing so prior to FRA as a result of work activity
that has reduced or eliminated monthly benefit payments. We identified cases where it
appeared beneficiaries were withdrawing benefits to obtain a higher monthly benefit,
though the volume was small. Nonetheless, SSA’s open-ended policy on application
withdrawals allows individuals to bypass the Agency’s retirement policies that
encourage delayed retirement. Moreover, the policy allows the beneficiaries to deny the
Trust Fund use of these monies prior to withdrawal without being required to pay
interest or penalties for the use of these Federal funds. Finally, while the number of
beneficiaries using this process may be small at this time, the workload could grow and
SSA will need to decide if this is where it wants to invest its scarce resources.

MATTERS FOR CONSIDERATION
SSA may want to modify the criteria for withdrawing Title II benefit applications and limit
its use. For example, withdrawals could be limited to cases where (1) work activity has
significantly reduced the amounts received by the beneficiary and (2) the beneficiary
has yet to reach FRA. SSA may want to also ensure beneficiaries are aware of the
implications of this withdrawal process, which may entail additional information on
SSA’s website.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                     Table of Contents
                                                                                                              Page

BACKGROUND ...................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 4

   WITHDRAWAL APPLICATION REQUIREMENTS ............................................. 4

   VOLUME OF WITHDRAWALS ........................................................................... 5

   REASON FOR WITHDRAWALS ........................................................................ 7

   POLICY INCENTIVES AND DISINCENTIVES ................................................. 10

   USE OF FEDERAL RESOURCES ................................................................... 11

MATTERS FOR CONSIDERATION ..................................................................... 13

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Request for Withdrawal of Application
APPENDIX C – Flowchart of Title II Withdrawal Process
APPENDIX D – Selected Title II Retirement Policies
APPENDIX E – Scope and Methodology
APPENDIX F – Cases Related to Large Repayments of Title II Retirement Benefits
APPENDIX G – OIG Contacts and Staff Acknowledgments




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                            Background
OBJECTIVE
Our objective was to assess the process, and related volume of transactions, whereby
Title II retired beneficiaries age 62 and over withdrew their Social Security
Administration (SSA) benefit applications and requested new benefits based on a later
retirement date.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
of the Social Security Act. 1 Title II provides monthly benefits to qualified retired workers,
survivors and disabled workers, as well as their eligible dependents. These benefits are
based on the worker’s earnings, averaged over his or her working lifetime.

An individual’s monthly Title II retirement benefit amount can vary based on the age at
which the beneficiary decides to start receiving benefits. If the beneficiary requests
benefits before full retirement age (FRA), he or she will get a reduced monthly benefit. 2
Also, if a retired wage earner waits until age 70 to receive benefits, the monthly benefit
amount increases due to delayed retirement credits (DRC). 3 See Appendix D for more
information on these policies and Figure 1 for an example of how these policies impact
monthly benefits.




1
    The Social Security Act § 201 et seq., 42 United States Code (U.S.C.) § 401 et seq.
2
  The Social Security Act § 202(q), 42 U.S.C. § 402(q). The reduced monthly benefit is a percentage of
the beneficiary’s Social Security benefit amount at full retirement age.
3
    The Social Security Act § 202(w), 42 U.S.C. § 402(w).


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                    1
                                        Figure 1: Monthly Benefits Based on
                                            Age When Retirement Starts
                                    $1,400                                                                   $1,320
                                                                                                    $1,240
                                                                                           $1,160
                                    $1,200
                                                                                  $1,080
                                                                         $1,000
                                    $1,000                        $933
                 Monthly Benefits
                                                           $866
                                                    $800
                                      $800   $750


                                      $600

                                      $400

                                      $200

                                        $0
                                             62     63     64     65      66       67       68       69       70
                                                                  Age Benefits Start

                                    Note: Assumes full retirement age is 66.
                                    Source: When to Start Receiving Retirement Benefits, SSA Publication
                                    No. 05-10147, July 2008, ICN 480136.


SSA’s WITHDRAWAL POLICY

SSA policy allows beneficiaries to withdraw an application after it has been filed,
provided beneficiaries consent in writing to the withdrawal and repay all the benefits
received to date. 4 When a beneficiary decides to withdraw his or her Title II application,
the field office (FO) representative should explain to the beneficiary the advantages and
disadvantages of withdrawing the application according to his or her situation. If the
beneficiary still wants to withdraw the application, he or she completes a Request
for Withdrawal of Application (Form SSA-521) 5 and remits all benefits already received. 6
If SSA approves the withdrawal application, the application will be considered as if it
was never filed. 7

4
 SSA, Program Operations Manual System (POMS) GN 00206.005 – Conditions for Withdrawal. Also
see 20 Code of Federal Regulations (C.F.R.) § 404.640, Withdrawal of an Application. This withdrawal
and repayment includes benefits paid to other individuals on the beneficiary’s record, such as a spouse.
5
  The SSA-521 is not required to initiate the withdrawal process. According to POMS, GN 00206.050, A,
1 – Manner of Requesting W/D [withdrawal]: “A form SSA-521 ‘Request for Withdrawal of an Application’
is the preferred instrument for executing a [withdrawal] request. However, any written request for
withdrawal signed by the claimant or a proper applicant on the claimant's behalf will suffice” (emphasis in
original). See Appendix B for a copy of Form SSA-521.
6
 Repayment would include both SSA benefits as well as any Medicare benefits paid by the Agency on
behalf of the beneficiary. See SSA, POMS GN 00206.095 – Processing and Repayment in Withdrawal
(WD) After Payment Effectuation Cases.
7
 The SSA Program Service Center (PSC) has jurisdiction of the Title II withdrawal request when
payments have started, whereas the FO has jurisdiction of the request when an award has not been
processed. See Appendix C for a flowchart of the application withdrawal process. See SSA, POMS
GN 00206.075 – Jurisdiction of Approvals and Denials of Withdrawal Requests.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                                 2
RECENT MEDIA ARTICLES ON THE WITHDRAWAL PROCESS

Recent media articles have promoted the use of SSA’s application withdrawal process
as a means for retired individuals to increase their benefits. One such article noted
“Millions of retired Americans could substantially raise their living standards throughout
retirement by sending checks for tens of thousands of dollars to the Social Security
Administration.” The article also stated “Does this really pay off? Yes, if you compare
the Social Security ploy with what you'd have to pay an insurance company for a similar
annuity.” 8




8
    Janet Novack, “Trade In Your Social Security Check,” Forbes, 7 February 2008 (online article).


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                3
                                                       Results of Review
Current SSA policy allows the withdrawal of an application for any reason. We found
the Agency did not maintain detailed management information related to the number of
Title II retirement application withdrawals. We estimated that Title II retirement
application withdrawals in Calendar Year (CY) 2007 ranged from about 12,000 to about
26,000. Our review of withdrawal applications indicated the majority of beneficiaries
withdrawing benefits are doing so prior to FRA as a result of work activity that has
reduced or eliminated monthly benefit payments. We identified cases where it
appeared beneficiaries were withdrawing benefits to obtain a higher benefit, though the
volume was small. Nonetheless, SSA’s open-ended policy on application withdrawals
allows individuals to bypass the Agency’s retirement policies that encourage delayed
retirement. Moreover, the policy allows the beneficiaries to deny the Trust Fund use of
these monies prior to withdrawal without being required to pay interest or penalties for
the use of these Federal funds. Finally, while the number of beneficiaries using this
process for their own gain may be small at this time, the workload could grow and SSA
will need to decide if this is where it wants to invest its scarce resources.

WITHDRAWAL APPLICATION REQUIREMENTS
Current SSA policy does not place any restrictions on the use of the withdrawal
application regarding beneficiaries’ circumstances or reasons for the withdrawal.
Moreover, SSA’s publications explaining retirement policies made no mention of the
withdrawal process.

WITHDRAWAL POLICY

SSA policy states all written benefit application withdrawal requests are approved,
unless:

      •   The person requesting the withdrawal is not the claimant or the proper applicant
          for the claimant;
      •   An otherwise proper withdrawal request is filed after the death of the claimant but
          the Treasury Department has already certified payment;
      •   Benefits are not repaid (or there is no way to offset the initial benefits that will be
          payable on a new claim or against current benefits due other beneficiaries); or
      •   Required consents are not obtained. 9




9
    SSA, POMS GN 00206.070 –Manner of Approving or Disapproving Withdrawal.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                               4
WITHDRAWAL FORM

The Form SSA-521 provides some basic information, including the lack of appeal rights,
the need to repay benefits, and how the form should be used when the “decision to file
has resulted, or will result, in a disadvantage to you.” The Form SSA-521 also provides
two options for the beneficiary to select when requesting the withdrawal. The options
include a check box indicating (1) the beneficiary intends to continue working and
(2) other – the beneficiary writes in the reason(s) for the withdrawal. 10 Hence, a
beneficiary can provide a multitude of reasons for withdrawing an application, including
a desire to receive a larger benefit.

PUBLICATIONS AND THE INTERNET

We reviewed SSA’s retirement publications and website and found very little mention of
the application withdrawal process. As of mid-August 2008, we found 16 publications
on SSA’s website regarding retirement benefits, but none of these publications
mentioned the application withdrawal process. We also reviewed the “Frequently Asked
Questions” section of the website, but did not find any information on the application
withdrawal process. Only by searching on the term “withdrawal” could we find a link to
SSA’s Handbook Section 1515, Right to Withdraw Application. However, this
Handbook section provides only basic information and does not discuss other aspects
of the withdrawal process, such as the need to return amounts for any Medicare
premiums paid by the Agency or the potential tax implications when repaying previously
taxed benefits to SSA. 11 The lack of SSA information on the withdrawal process, in the
light of increasing media interest, allows parties other than SSA to define this process
for the public. In responding to this report, the Agency agreed to pursue enhanced
education for the public and SSA employees on the subject of application withdrawals.

VOLUME OF WITHDRAWALS
SSA did not maintain detailed management information related to the number of Title II
retirement application withdrawals. However, we estimated that Title II retiree
application withdrawals in CY 2007 ranged from about 12,000 to 26,000. 12 At the start
of the review, we asked SSA for application withdrawal data covering the 5 most recent
CYs. The Agency provided summary data for CYs 2006 and 2007, as well as the first
3 months of 2008 (see Table 1). SSA provided summary management information
indicating a workload of approximately 26,400 applications in CY 2007. SSA did not
provide break-outs by age or Title II program.


10
     See Appendix B for a copy of the Form SSA-521.

11
  Internal Revenue Service (IRS) Publication 915, Social Security and Equivalent Railroad Retirement
Benefits, discusses the repayment of SSA benefits.

12
 By comparison, as of December 2007, approximately 41 million workers, survivors and dependents
were receiving SSA Title II benefits.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                  5
           Table 1: Title II Application Withdrawal Activity Provided by SSA1
   Program Service Center2                 CY 2006                  CY 2007                 CY 20083
 Birmingham                                  4,169                   4,397                     917
 Chicago                                     3,787                   3,945                     858
 Kansas City                                 4,674                   4,660                   1,044
 New York                                    5,028                   4,494                     880
 Philadelphia                                3,365                   3,390                     779
 San Francisco                               4,133                   3,778                     891
 Headquarters4                               1,490                   1,710                     338
 Totals                                     26,646                  26,374                   5,707
Note 1: SSA’s data includes application withdrawals related to Title II retirees, survivors, Medicare-only
beneficiaries and disabled beneficiaries.
Note 2: These withdrawals were handled by SSA’s Program Service Centers (PSC).
Note 3: This period is from January 2008 through the middle of March 2008.
Note 4: Headquarters includes the Office of Disability Operations and the Division of International
Operations.

To confirm the Agency’s workload figures, we extracted cases from one segment 13 of
the Master Beneficiary Record (MBR) containing information indicating an application
for withdrawal had been processed. For instance, our extract identified
602 beneficiaries age 62 and over who appeared to have some form of withdrawal
activity related to Title II benefits in CY 2007. 14 If we assume that our results for this
segment are representative of the entire MBR, we estimate that approximately
12,000 beneficiaries age 62 and over initiated a benefit withdrawal in CY 2007. 15

When we spoke to SSA staff about the differences between our numbers and the
Agency’s numbers, the staff noted that some of the withdrawals may have been
recorded more than once since it often takes several contacts with a beneficiary to
complete a withdrawal action. Staff also noted that some of the identifiers used to
extract the information may not have existed for the earlier withdrawals due to changes
in the system. In addition, our extract was specific to beneficiaries age 62 and over,
whereas the Agency’s numbers were not age specific. Finally, our own experience with
the extracted data indicated that some of the data fields in the MBR may be overwritten
with time, so evidence of withdrawal activity may disappear over time.




13
  The MBR is divided into 20 segments based on the terminal digits of a Social Security number. Each
segment is considered representative of the entire MBR.
14
  In addition to retired workers, the age 62 and over beneficiaries in our extract also included survivors,
Medicare-only beneficiaries and disabled beneficiaries. We found that 93 percent of these beneficiaries
were wage earners, 4 percent were widows/widowers, and the remaining 3 percent were aged or
divorced spouses.

15
  The Office of Central Operations (OCO) also attempted to support the application withdrawal figures
provided in Table 1. OCO’s final count on this workload was lower than our extract from the MBR.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                         6
REASON FOR WITHDRAWALS

We reviewed 50 Title II application withdrawal cases related to beneficiaries age 62 and
over from one segment of the MBR to determine the reasons that beneficiaries withdraw
their benefit applications. 16 Our analysis of these cases, representing withdrawal
activity between CYs 2000 and 2008, indicated that 41 beneficiaries, or 82 percent,
were using this process because they continued to work and were often receiving no
monthly payments and/or reduced monthly payments (see Figure 1). Specifically, we
found:

      •    41 beneficiaries withdrew as a result of continuing to work;
      •    3 beneficiaries withdrew to acquire a higher monthly payment amount;
      •    6 beneficiaries withdrew for other reasons.

                 Figure 1: Review of 50 Title II Application Withdrawal Cases
                                              (CYs 2000 to 2008)


                             12%
                      6%
                                                               Work-Related
                                                               Increased Benefit
                                                               Other



                                                   82%


The 41 beneficiaries withdrawing due to work activity applied for benefits prior to their
FRA, which led to their earnings being subject to earnings limits. 17 Moreover, the
41 beneficiaries were receiving benefits for an average of less than 1 year before they
decided to withdraw their application. 18 While SSA would adjust the monthly benefits




16
     None of these 50 cases related to disability benefits.
17
   For example, in 2008, a person under FRA for the entire year is allowed to have annual earnings of
$13,560 or less before his/her benefits are reduced. SSA deducts $1 from benefits for each $2 earned
above this earnings limit. The rules are more complex during the first year of retirement before FRA and
in the year of FRA. Only wages and net earnings from self-employment count toward this earnings limit.
SSA does not count income such as other government benefits, investment earnings, interest, pensions,
annuities and capital gains.
18
 In some of these cases, we had to estimate the date the withdrawal was requested by reviewing the
MBR and other SSA records since SSA-521s for 10 of the 50 cases were unavailable.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                      7
payable to these beneficiaries when they reach FRA to account for those months where
earnings exceeded the limits and they received a full or partial work reduction, the
withdrawal process adjusts the monthly benefit amount earlier. 19

For example, in one case, the beneficiary applied for retirement benefits in
October 2007, indicating that she would like to begin receiving SSA benefits beginning
in January 2008. On January 20, 2008, she requested a withdrawal of the Title II
application, indicating that she planned to continue working and would like to delay her
retirement. She did not receive any SSA benefits during this period and SSA approved
her withdrawal.

Of the three cases where the beneficiaries appeared to withdraw to obtain a higher
benefit, only one had reapplied for retirement benefits at the time of our review. All
three beneficiaries applied for benefits prior to FRA and none of the beneficiaries
showed significant work activity in SSA’s records. The repaid amount on the one case
was $13,866.

REPAYMENTS OVER $15,000

To determine whether SSA’s systems had evidence of large repayments of benefits by
beneficiaries, we also reviewed those withdrawal cases between CYs 2000 and 2008
where a repayment of $15,000 or more was posted to the Agency’s Payment History
Update System (PHUS). 20 Of the cases we reviewed, 21 we identified 39 withdrawal
cases where beneficiaries repaid more than $15,000 to SSA. 22 Our review indicated
that 11 beneficiaries, or about 28 percent, withdrew their applications primarily to
acquire higher monthly payment amounts (see Figure 2).

      •   25 beneficiaries withdrew as a result of continuing to work;
      •   11 beneficiaries withdrew to acquire a higher payment amount; and
      •   3 beneficiaries withdrew due to other reasons. 23




19
     See Appendix D.
20
  We reviewed remittances between CYs 2004 and 2008. As with the earlier test, we used the same
segment of the MBR.
21
  Our population represented one segment of the MBR. While these cases had some form of remittance
posted to the PHUS, we did not determine whether the remittance related to a withdrawn application
unless the total amount remitted exceeded $15,000.
22
   We identified another case related to disability payments, which we did not include in our analysis since
it did not relate to retirement benefits.
23
  In two cases, SSA overpaid these beneficiaries and they were returning the funds. In the third case,
the beneficiary decided to claim benefits on another record.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                     8
                  Figure 2: Review of 39 Title II Application Withdrawal
                            Repayments Exceeding $15,000
                                           (CYs 2004 to 2008)


                               8%


                                                                 Work-Related
                28%
                                                                 Increased
                                                                 Benefit
                                                                 Other Reasons


                                                 64%


For example, one 67 year-old beneficiary repaid $81,432 related to benefit payments
from June 2003 to March 2008, and then reapplied for benefits. 24 During this period, he
did not have significant earnings. 25 As a result of this repayment, his monthly benefit
amount increased by approximately $453 per month. At the rate of $453 per month, it
will take approximately 15 years for this beneficiary to recover the funds he repaid to
SSA, 26 at which time he will be about 82 years-old. 27 See Appendix F for more
information on the 11 cases where we believe the primary reason for the withdrawal
was to increase the monthly benefit payments.

Given the fact that we isolated only 11 cases in one segment of the MBR where it
appears Title II retired beneficiaries were repaying more than $15,000 to obtain a higher



24
  His FRA began in December 2006. By repaying his past benefit amounts and reapplying, he will
receive the full FRA monthly payment (unreduced) as well as DRCs.
25
  The beneficiary had minor wages prior to FRA that did not exceed the annual exemption amount. We
were not able to determine if this individual had other sources of income that may have been used to
repay these benefits. SSA’s Master Earning File (MEF) records wages, self-employment income, and
some other types of income, such as pensions. However, the MEF would not record income sources
such as investment interest and dividends, rental income, etc. While this information may have been
reported to the IRS, it is generally not recorded in SSA’s systems.
26
   While we did not see this break-even calculation or discussion in the documents we reviewed for this
case, in another withdrawal case we found the following language: “I understand that my withdrawing my
claim and repaying the benefits that I have received that it will take me 10.5 years to recoup the money
that I am refusing and repaying.” It does not appear this break-even analysis takes into consideration the
opportunity cost of using one’s funds to repay benefits. Since the repaid funds will no longer generate
interest or other revenue for the beneficiary, this loss would offset some of the gain from the larger SSA
monthly payments.
27
  Monthly payment increases would apply to this applicant as well as any auxiliary beneficiaries on his
record.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                     9
monthly payment, 28 it does not appear at this time that a significant number of
beneficiaries are taking advantage of the withdrawal process for the sole purpose of
obtaining a larger monthly payment. 29

POLICY INCENTIVES AND DISINCENTIVES
Beneficiaries who return their benefit payments could potentially bypass the intention of
SSA’s retirement policies. While SSA’s retirement policies encourage later retirement,
the application withdrawal policies allow individuals to benefit from these incentives
regardless of their decision to retire early.

REDUCTION FACTOR

Benefits are reduced one-half of one percent for each month an individual receives a
retirement benefit before he or she attains FRA. 30 While SSA’s communications with
the public clearly state that deciding when to retire is a “personal decision,” the Agency
also notes that a decision to retire early will lead to a “permanently” reduced benefit
amount:

          You can get Social Security retirement benefits as early as age 62, but if you
          retire before your full retirement age, your benefits will be permanently
          reduced, based on your age. For example, if you retire at age 62, your benefit
          would be about 25 percent lower than what it would be if you waited until you
          reach full retirement age (emphasis in original). 31

This being said, the current application withdrawal policy allows these “permanently”
reduced monthly payments to be repaid and a new monthly benefit established as if the
person never elected to retire early. Given the cost of repaying years worth of past
benefits, it is unlikely that the average retired individual is in a position to reverse this
earlier decision.




28
  Based on these 11 cases from one segment of the MBR, we estimate that approximately
220 repayment cases would be found in all 20 segment of the MBR associated with our review period.

29
  However, as noted earlier, our estimate of annual application withdrawals is lower than the Agency’s
count. Hence, the total number of beneficiaries repaying more than $15,000 to obtain a higher monthly
payment could be greater.
30
     See Appendix D.
31
     SSA, Retirement Benefits, SSA Publication No. 05-10035, January 2008, ICN 457500.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                    10
DELAYED RETIREMENT CREDITS

The DRC takes effect if an SSA beneficiary delays receiving SSA’s retirement benefits
beginning at FRA and until age 70. 32 The DRC is a percentage added to the benefit
due and varies depending on the individual’s date of birth. For example, the annual rate
of increase in benefits is currently 8 percent for individuals born in 1943 or later (see
Appendix D). Again, this increase is intended to benefit those individuals who decide to
delay retirement and forgo payments from the Trust Fund. By allowing beneficiaries to
repay benefits and then reapply at a later age, SSA is providing DRCs to beneficiaries
who did not actually delay their retirement.

USE OF FEDERAL RESOURCES
SSA’s policy allowing beneficiaries to withdraw their applications and repay entitlement
amounts received allows the beneficiaries the use of Federal funds at a zero percent
interest rate. In addition, this policy denies the Old-Age and Survivors Insurance (OASI)
Trust Funds the opportunity to earn interest on those same funds. Moreover, the
processing of the withdrawal applications uses resources in SSA’s FOs and PSCs.

INTEREST EARNED BY BENEFICIARY

Our review of withdrawal repayments demonstrated that beneficiaries withdrawing from
the Title II program were repaying the exact benefit amounts that they received from
SSA without any additional interest. As a result, these beneficiaries had use of the
Federal funds for months and even years interest-free. For example, the beneficiary
discussed earlier in this report who repaid $81,432 in Title II benefits received from
June 2003 to March 2008 had almost 5 years’ use of Federal funds without any
assessment of interest or other penalties.

INTEREST EARNED BY THE TRUST FUND

Beneficiaries withdrawing Title II benefit applications are not required to reimburse the
OASI Trust Fund for lost interest. OASI Trust Fund monies are invested in Federal
securities which earn interest. 33 Hence, SSA has lost use of these monies as well as
the interest that would have been earned when funds are withdrawn from the OASI
Trust Fund to pay benefits to beneficiaries who later return these funds. To expand on
our earlier example, a beneficiary repaying $81,432 to SSA is returning only the
principal funds to SSA. The beneficiary is not repaying the interest that those same
funds would have earned had they remained in the OASI Trust Fund.

32
     See Appendix C.
33
  These securities are special issues – securities issued only to the Trust Fund. Interest on special-issue
investments is paid semi-annually, at the end of June and December. Because the Trust Funds hold no
cash, investments are redeemed each month to pay for benefits and administrative expenses. When
investments are redeemed, interest is paid. The amount of interest paid is used to offset the amount of
investment redemptions.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                                   11
SSA WORKLOAD

As noted earlier, the number of application withdrawals is not significant at this time.
Nonetheless, each withdrawal application can involve FO staff explaining the withdrawal
process and whether it is appropriate for the individual, PSC staff recalculating
repayment amounts, and FO staff processing new benefit applications. Moreover,
increasing media attention regarding the withdrawal process may lead to greater
workloads in the future. This comes at a time where SSA is faced with other workload
challenges. As stated by SSA’s Commissioner in February 2008,

       SSA is now at a critical juncture. Due to the aging of the baby boomers, SSA
       is facing an avalanche of retirement and disability claims at the same time that
       it must address large backlogs due to years of increasing workloads and
       limited resources. Over the last few years as SSA offices lost staff, waiting
       times increased, lines grew longer, and busy rates in our field offices
       deteriorated. 34




34
  Statement of Commissioner Michael J. Astrue, before the Committee on Appropriations Subcommittee
on Labor, Health and Human Services, Education and Related Agencies, concerning SSA’s FY 2009
budget request, as well as plans to improve the disability workloads, February 28, 2008.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                           12
                                     Matters for Consideration
While SSA policy allows retired beneficiaries to withdraw their Title II benefit application,
this policy also allows certain SSA beneficiaries to bypass the intent of SSA’s retirement
policies. SSA’s policy on application withdrawal does not place any restrictions on its
use regarding beneficiaries’ circumstances or reasons for the withdrawal. The
openness of these procedures allows a loophole for those SSA beneficiaries who would
like to increase the amount of their reduced benefits. Moreover, it permits SSA
beneficiaries use of Federal funds at a zero percent interest rate while denying the
OASI Trust Fund the opportunity to earn interest on those same funds.

For these reasons, SSA may want to modify the criteria for withdrawing Title II benefit
applications and limit its use. For example, withdrawals could be limited to cases where
(1) work activity has significantly reduced the amounts received by the beneficiary and
(2) the beneficiary has yet to reach FRA. SSA may want to also ensure beneficiaries
are aware of the implications of this withdrawal process, which may entail placing
additional information on SSA’s website.




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                      13
                                              Appendices




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                        Appendix A

Acronyms

     ARF             Adjustment to the Reduction Factor

     C.F.R.          Code of Federal Regulations

     CY              Calendar Year

     DRC             Delayed Retirement Credit

     FO              Field Office

     FRA             Full Retirement Age

     IRS             Internal Revenue Service

     MBR             Master Beneficiary Record

     MEF             Master Earnings File

     OASI            Old-Age and Survivors Insurance

     OCO             Office of Central Operations

     OIG             Office of the Inspector General

     PHUS            Payment History Update System

     POMS            Program Operations Manual System

     PSC             Program Service Center

     Pub. L. No.     Public Law Number

     SSA             Social Security Administration

     U.S.C.          United States Code

     Form

     SSA-521         Request for Withdrawal of Application




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                        Appendix B
Request for Withdrawal of Application




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)           B-1
Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)   B-2
                                                                                         Appendix C
Flowchart of Title II Withdrawal Process
    Beneficiary contacts Social Security     The beneficiary visits a Field office (FO) or
   Administration (SSA) about withdrawal     contacts a teleservice center to discuss
                                             withdrawing a benefit application.


       SSA discusses pros and cons of
        withdrawing with beneficiary




            Beneficiary decides                          No. Benefits continue
              on withdrawal?




          Yes. Beneficiary submits           Beneficiary submits a Request for Withdrawal
            withdrawal request               of Application Form (SSA-521) or equivalent
                                             to the FO to initiate the withdrawal process.

                                             In general, FO will suspend the benefit
    FO suspends payment to beneficiary       payments.


       FO forwards Form SSA-521 to
     Program Service Center (PSC) for
                processing



    PSC determines amount to be repaid
              by beneficiary



     PSC sends beneficiary a notice and      If the beneficiary does not repay the amount
      provides 45 days for repayment         received, the PSC sends a second 30-day
                                             follow-up.




             Beneficiary repays                          No. Benefits continue
               this amount?




      Yes. Amount remitted to SSA and
           benefits are terminated




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                                  Appendix D
Selected Title II Retirement Policies
Individuals can start Social Security retirement benefits as early as age 62, but the
benefit amount received will be less than the full retirement benefit amount. If the
benefits are started early, they will be “permanently” reduced based on the number of
months the individual received benefits before full retirement age. This is called the
reduction factor. It may be to the individual’s advantage to delay filing an application for
monthly benefits if the individual has not yet reached full retirement age (FRA) and the
individual wishes to wait to receive an unreduced benefit at FRA. Social Security
benefits are increased by a certain percentage (depending on date of birth) if the
individual retires beyond full retirement age. This is called the Delayed Retirement
Credit (DRC). See Figure D-1 regarding the retirement decision choices.

                               Figure D-1: Retirement Date Decision



                                      Full Retirement Age (FRA)
      Age             62                                                   70




                                            Adjustment to
      Policy                                the Reduction
                                             Factor (ARF)


                               Reduction                      Delayed
                                Factor                       Retirement
                                                            Credit (DRC)




Reduction Factor: 1 The reduction factor occurs with early retirement (retirement
before FRA). 2 The reduction factors are the number of months before FRA that a
beneficiary elects to receive retirement benefits. Benefits are reduced one-half of
1 percent for each month an individual receives a retirement benefit before he or she




1
    The Social Security Act § 202(q), 42 U.S.C. § 402(q).
2
 The Social Security Amendments of 1983 included a provision for raising the full retirement age
beginning with people born in 1938 or later. See Pub. L. No. 98-21 § 201(a).


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                              D-1
attains FRA. For example, the following are the monthly benefit reductions for a
beneficiary whose FRA is age 67:
          62 is about 30 percent;
          63 is about 25 percent;
          64 is about 20 percent;
          65 is about 13.3 percent; and
          66 is about 6.7 percent.

Excess Earnings: 3 “Excess earnings” occur with early retirement (i.e., from
age 62 through FRA). The “excess earnings” are the beneficiary’s earnings that exceed
the annual exempt amount. The annual exempt amount varies from year to year
according to increases in the nationwide earnings level.

Adjustment of the Reduction Factor (ARF): The ARF occurs at FRA. The ARF
determines the monthly amount payable to the beneficiary for the month in which the
beneficiary reaches FRA and later months. It is made for (1) a full or partial work
deduction or (2) any month the beneficiary was entitled to retirement benefits and also
entitled to disability benefits.

DRC: 4 The DRC occurs in the month of FRA and later. The DRC takes effect if an
SSA retired wage earner delays receiving SSA’s retirement benefits beginning at FRA
and until age 70. The beneficiary’s year of birth and the number of months retirement
was delayed determine how much the benefit will increase (see Table D-1).

                   Table D-1: Delayed Retirement Credits by Year of Birth
                                                    Annual Rate of Increase in
                              Year of Birth            Benefit Payments
                               1917-1924                      3.0%
                               1925-1926                      3.5%
                               1927-1928                      4.0%
                               1929-1930                      4.5%
                               1931-1932                      5.0%
                               1933-1934                      5.5%
                               1935-1936                      6.0%
                               1937-1938                      6.5%
                               1939-1940                      7.0%
                               1941-1942                      7.5%
                              1943 or later                   8.0%




3
    20 C.F.R. § 404.434, Excess Earnings; Method of Charging.
4
    The Social Security Act § 202(w), 42 U.S.C. § 402(w).


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)                D-2
                                                                                Appendix E
Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable laws, regulations and Social Security Administration (SSA)
    policies and procedures, including sections of SSA’s Online Handbook and Program
    Operations Manual System.

•   Reviewed prior Office of the Inspector General and Government Accountability
    Office reports.

•   Requested 5 years of withdrawal application data from SSA.

•   Reviewed an extract from one segment of the Master Beneficiary Record (MBR) 1 to
    identify benefit application withdrawals since Calendar Year (CY) 2000 related to
    Title II beneficiaries age 62 and over. After analyzing this data, we also contacted
    system specialists in the Office of Central Operations, Region V and the Great Lakes
    Program Service Center to verify our numbers and potential discrepancies. Using
    this data, we:
            Reviewed a sample of 50 withdrawal applications from CYs 2000 to 2008
             to determine the reason for the withdrawal.
            Obtained remittance data from CYs 2004 to 2008 for withdrawal
             applications from CYs 2000 to 2008, identified remittances greater than
             $15,000, and determined the reason for the withdrawal.

•   Interviewed representatives from SSA’s Headquarters, Region V and Great Lakes
    Program Service Center components to learn more about the Title II withdrawal
    application process.

Due to time constraints, we did not review the internal controls related to SSA’s
management and oversight of the withdrawal application process. Moreover, as stated
in our report findings, we did not find SSA’s withdrawal application summary data to be
reliable, though we attempted to recreate these numbers to provide a range of
withdrawal activities for this report. The entity reviewed was field offices and program
service centers under the Deputy Commissioner for Operations. We performed our
review in Chicago, Illinois, between March and August 2008 in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.


1
 The MBR is divided into 20 segments based on the terminal digits of a Social Security number. Each
segment is considered representative of the entire MBR.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                                    Appendix F

Cases Related to Large Repayments of Title II
Retirement Benefits
To determine whether the Social Security Administration’s (SSA) systems had evidence
of large repayments of benefits by Title II retired beneficiaries age 62 and over, we
reviewed those withdrawal cases between Calendar Years (CY) 2000 and 2008 where
a repayment of $15,000 or more was posted to the Agency’s Payment History Update
System between CYs 2004 to 2008. 1 Of the cases we reviewed, we identified
39 withdrawal cases where beneficiaries repaid more than $15,000 to SSA. Our review
indicated 11 cases, or about 28 percent of the beneficiaries, withdrew their applications
primarily to acquire higher monthly payment amounts (see Table F-1).

             Table F-1: Title II Retired Beneficiaries Age 62 and Over Repaying
                     More than $15,000 to Obtain an Increased Benefit
           Date of Full                                  Time Between                          Date
           Retirement       Date of      Date of        Application and       Amount to     Reapplied
                                                                                                        1
    Case      Age         Application   Withdrawal         Withdrawal         be Repaid    for Benefits
      1     05/2006        08/2002       04/2008        5 years, 7 months     $95,449.00        N/A
      2     12/2006        02/2003       03/2008          5 years, 1 month    $81,432.70      03/2008
      3     02/2007        04/2003       08/2007        4 years, 4 months     $63,274.40      03/2007
      4     09/2008        11/2004       03/2008        3 years, 3 months     $49,727.40        N/A
      5     03/2007        06/2004       08/2007        3 years, 2 months     $45,848.50      08/2007
      6     03/2003        03/2000       04/2008          8 years, 1 month    $33,693.20      03/2008
      7     07/2005        07/2005       09/2007        2 years, 2 months     $29,524.00      06/2008
      8     08/2005        01/2006       06/2007          1 year, 5 months    $26,854.00      09/2007
      9     09/2010        10/2006       11/2007           1 year, 1 month    $19,719.00        N/A
     10     06/2007        07/2003       10/2006        3 years, 3 months     $18,437.50      04/2007
     11     02/2006        09/2002       08/2005       2 years, 10 months     $16,604.20        N/A
Note 1: Cases with “N/A” had not yet reapplied for benefits at the time of our review.




1
  We used the same randomly-selected segment of the Master Beneficiary Record discussed earlier in
this report.


Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                                                                        Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division (312) 353-0331

   Annette Dunn, Audit Manager, Chicago Office (312) 886-4160

Acknowledgments
In addition to those named above:

   Elizabeth Juarez, Auditor-in-Charge

   Nichole Purnell, Program Analyst

   Linda Smid, Auditor

   Wai Ho Yung, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-08-28110.




Individuals Withdrawing Title II Benefit Applications (A-05-08-28110)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
